CERTIFICATE OF SERVICE AND MAILBOX RULE STATEMENT
I, Delmart E.J.M. Vreeland, II, Petitioner, Pro Se, hereby certify that on
Ootcber 8th, 2020, I placed into the inmate legal mail system at CDOC/CSP
Colorado, all postage prepaid, Motion for Leave to Proceed In Forma. Pauperis,
financial declaration; Motion for Leave to Exceed page Limits By 3 Pages on
Petition for Writ of Certiorari; the Petition for Writ of Certiorari, and all
attachments thereto labeled as Attachment A through J-7, in proper packing for
mailing to the U.S. Supreme Court,

1 First Street, N.E., Washington, DC 20543;

and that a copy of same was also served to Respondent Colorado Attorney General
by Court ECF and U.S. mail, all postage prepaid this same date addressed to
Colorado Attorney General 1300 Broadway, Denver, Colorado 80203.

CD0C NO. 143539
P.0. BOX 777
Canon City, Colorado
81215

